No. 20-48

In the Supreme Court of the United States
STACEY EUGENE JOHNSON,
Petitioner,
v.
STATE OF ARKANSAS,
Respondent.
CERTIFICATE OF SERVICE
I, Nicholas J. Bronni, counsel for Respondent, State of Arkansas, hereby certify
that on this day, October 16, 2020, I caused one copy of Respondent’s Brief in Opposition to be served by email on the following counsel:
Jane Taylor Pucher
The Innocence Project
40 Worth Street, Suite 701
New York, NY 10013
jpucher@innocenceproject.org
Counsel for Petitioner
Pursuant to this Court’s April 15, 2020 Order relating to COVID-19, the parties
have agreed to electronic service. I further certify that all parties required to be
served have been served.

/S/ Nicholas J. Bronni
NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
Nicholas.Bronni@arkansasag.gov

